3$nttrfr JS
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 16, 2020
Decided November 30, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
DIANE P. WOOD, Circuit Judge

No. 20-1970
JERRY L. WHEELER,
Petitioner-Appellant,

v.
RANDALL HEPP,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of
Wisconsin.
No. 13-CV-1163
Stephen C. Dries,
Magistrate Judge.

ORDER
Jerry Wheeler has filed a notice of appeal from the denial of his 28 U.S.C. § 2254
petition and a request for a certificate of appealability. We have reviewed the final order
of the district court and the record on appeal. We find no substantial showing of the
denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability and DENY
Wheeler's motion for appointed counsel.

United States District Court
Eastern District of Wisconsin
JERRY WHEELER,

Petitioners),
JUDGMENT IN A CIVIL CASE
v.
•

Case No. 13-CV-1163

WILLIAM POLLARD
Respondents).
□

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried, and the jury has rendered its verdict.

[X]

Decision by Court. This'action came before the Court for consideration.

IT IS HEREBY ORDERED AND ADJUDGED that the petition is DENIED and
the case is DISMISSED. A certificate of appealability is DENIED.

Approved:
United States Magistrate Judge
Dated at Milwaukee, Wisconsin, this 28th day of May, 2020.
GINAM. COLLETTI
Clerk of Court
sf Tony Byal
(By) DeputyClerk

Case 2:13-cv-01163-SCD Filed 05/28/20 Page 1 of 1 Document 58
I

Wheeler v. Pollard, Slip Copy (2020)

Appeal Filed by JERRY WHEELER v. RANDALL HEPP, 7th Cir., June 9, 2020
2020 WL 2748130

Only the Westlaw citation is currently available.
United States District Court, E.D. Wisconsin.
Jerry WHEELER, Petitioner,
v.
William POLLARD, Respondent.
Case No. 13-CV-1163
Filed 05/27/2020

DECISION AND ORDER
STEPHEN C. DRIES United States Magistrate Judge
*1 The petitioner filed this habeas corpus action on October 15, 2013. The petitioner later requested and received a stay to
allow him to pursue claims in state court.1 More recently, the parties consented to the jurisdiction of the undersigned magistrate
judge. For the reasons given below, the petition will be denied.
BACKGROUND

4 b -

U o

6

In August 2004, fifteen-year-old C.A. reported past instances of sexual abuse by the petitioner—C.A.’s stepfather—to the
Oshkosh Police Department. ECFNo. 13-10 at 87-94. Winnebago County charged the petitioner with repeated sexual assault of
the same child, in violation of Wis. Stat § 948.025, based on alleged assaults that occurred in Oshkosh in 2001 and 2002. ECF
No. 1 at 2. After two adjournments of the petitioner’s trial, in January 2008 the State filed a motion to use “other acts” evidence
at trial, which the petitioner opposed. The court ruled that it would allow the State to present evidence of the petitioner’s history
of sexual abuse of C.A. from before the charging period. ECF No. 13-8. After finding the evidence was offered for an acceptable
purpose under Wis. Stat. § 904.04(2)(a) and State v. Sullivan, 576 N. W.2d 30 (Wis. 1998), the judge remarked that he needed
to consider whether the probative value outweighed the unfair prejudice. ECF No. 13-8 at 15-17. He stated:

Then it comes down to whether or not the probative value outweighs the unfair prejudice. And I think
the Shillcutt case is very interesting in that aspect because it talks about die fact that although prejudicial
by its nature, the prejudicial effect of the evidence was not such as to acquire [sic] exclusion, and it goes
on to say that it can be - this type of evidence can be tempered with an instruction or an admonition
to the jury about the purpose that it is being used for. And it’s historically been my practice when other
acts evidence is allowed that there be an other acts instruction put into the record at the time that the
other acts is about to be put into the record so it is done up front with the jury, and I think under those
circumstances - in fact, the Shillcutt case goes on to say: If an admonitory instruction is properly given
by the Court, prejudice to the defendant is presumed erased from the jury’s mind. I think that a pretty
interest comment but I do think that under the circumstances that the instruction can take care of that
unfair prejudice so I am going to allow the evidence of the testimony regarding the prior relationship
between [C.A. and the petitioner.].

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Wheeler v. Pollard, Slip Copy (2020)

Id at 18. As for logistics of giving the instruction, the judge said:
I think maybe [the prosecutor] and [counsel] Mr. Fulleylove-Krause can talk about that where you prefer it to come in. My
impression would be that that be provided before [C.A.] testifies and we just give the instruction indicating that during the
course of her testimony you may hear some evidence and there is the instruction for the other acts evidence, we would have
to create that, and maybe [the prosecutor] can make a sample for Mr. Fulleylove-Krause and I to look at and we’ll make
sure that is taken care of.
*2 ...

So on Monday morning we’ll have a half hour to forty minutes before the jurors are done with their thing. We can take up
that instruction at that time. I’d ask, though, that [the prosecutor] get that to Mr. Fulleylove-Krause before the end of business
and the Court by the end of business on Friday so we can look at it.
Id at 19. The trial court went on to exclude additional “other acts” evidence consisting of the petitioner’s prior conviction for
sexual assault of two underage girls that he believed to be of-age. Id. at 19-21.
After voir dire, the trial judge gave the jurors some opening instructions but did not include an instruction on “other acts”
evidence. ECF No. 13-9 at 126-29; ECF No. 13-10 at 1-3. Following opening statements, C.A. appeared as the first witness
for the State. The petitioner’s counsel did not request—and the trial court did not offer—an admonitory instruction to the jury
about the “other acts” evidence they would hear. ECF No. 13-10 at 44.
C.A. testified that she met the petitioner when he began dating C.A.’s mother in 1996. ECF No. 13-10 at 45. The petitioner
began sexually abusing her in 1999, while she, her two brothers, her mother, and the petitioner lived in Indiana. Id at 49-52. She
testified that the petitioner began his advances by telling her that he wanted to teach her about sex and eventually progressed
his abuse to sexual contact and sexual intercourse. Id. C.A. stated that the sexual abuse happened “on a nightly basis” while the
family lived in Indiana but also that the petitioner would abuse her during the day after excusing her from school. Id. at 55-59.
She further described an incident where he pulled her into the bathroom to watch him urinate. Id. at 59.
4 3C.A. testified that in “about August of 2001,” the family moved to Oshkosh, Wisconsin, and initially lived with her mother’s
brother, Miguel. Id. at 67. She stated that “about November” the family moved to a residence on Jackson Street in Oshkosh.
Id. at 67-68. She testified that about a week after moving into the Jackson Street residence, she awoke to find the petitioner
rubbing her leg and putting his fingers inside her vagina. Id. at 70-71. She stated that he did this more than once on the same
night. Id. She stated that she tried to alert her mom by screaming, but that the petitioner “put his hand over my mouth and told
me to shut up.” Id. at 72. C.A. described a second incident at the Oshkosh residence where the petitioner woke her up early
in the morning and oiled her legs to “loosen her muscles” for playing football. Id at 73-74. She said the petitioner progressed
further and further up her legs until he put his fmger inside of her; when that happened C.A. ran upstairs. Id. at 74.
C.A. testified that “six or seven times” at the Oshkosh residence, the petitioner came into her room naked, woke her up and had
her come to the bathroom to wash his back. Id at 76-77. C.A. testified that about 1:00 a.m. on December 8,2001, the petitioner
came home from a party and went into her room. Id at 79. There, the petitioner pulled off her covers, pulled off her pants and
underwear, and tried to put his penis inside her vagina. Id. She described kicking and pushing him and telling him no. Id. She
said that later that day, he came into her room and told her that he would give her a $1,000 shopping spree if she would have
sex with him. Id at 81-82. She testified that the petitioner attempted assaults at the Oshkosh residence on a nightly basis and
that he assaulted her "more than a dozen times” during the time they lived in the Jackson Street residence. Id at 83-84.
*3 Eventually, C.A. decided to write a letter she entitled “An Open Secret” to let her mother know about the petitioner’s
assaults. Id at 89. C.A.’s letter referred to the petitioner as her “boogieman,” but did not detail the abuse she suffered. Id. at
90. C.A. testified that after her mother read the letter, she and her mom had a family meeting with one of her brothers before
reporting the abuse to the Christine Ann Center and eventually the police. Id. at 90-93.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

oo6

Wheeler v. Pollard, Slip Copy (2020)

The State also presented testimony from Dr. Beth Huebner, a clinical psychologist who worked with victims and perpetrators
of sexual assault. ECF No. 14-1 at 14-16. Dr. Huebner testified that delayed reporting of assaults is common. Id. at 16. She
testified that victims often report sexual abuse to someone they view as a safe person. Id at 18-19. She stated that victims might
report indirectly, such as by writing a letter. Id at 19. Dr. Huebner testified that a victim might report when they felt at risk of
re-victimization. Id. at 20. She testified that a young victim might have a very hard time discerning the precise frequency of
the assaults, because die abuse can be an all-encompassing part of his or her life. Id. at 22. Dr. Huebner testified that a family’s
mobility could affect disclosure and that she’d experienced a number of cases where the abuse occurred for years before the
victim disclosed. Id. at 25. On cross-examination, Dr. Huebner testified that false reports happened in a “very small percentage”
of cases— “about 2 percent.” Id. at 33.
The jury also heard from ClarisaCruz, C.A.’s mother and the petitioner’s ex-wife. ECF No. 14-1 at 64. She testified that while
the family lived in Indiana in 1998 and 1999, she commuted to work in Chicago, Illinois, leaving C.A. alone with the petitioner.
Id. at 67-68. Cruz testified that, during the family’s time in Indiana, C.A. “always didn’t feel well.... She had a headache or a
tummy ache.” Id. at 69. She described a situation in December of 2001 where the petitioner asked her whether he could give
his $900 paycheck to C.A. “to see how she will spend it, if she was responsible[.]” Id. Cruz testified that in August of 2004,
C.A. brought her “An Open Secret.” Id. at 81. After that, she took her daughter to the Christine Ann Center and then to the
police station. Id. at 83.
The petitioner re-called C.A. to testify. ECF No. 14-2 at 23. The petitioner also called his friend and work colleague Timothy
Kemp. ECF No. 14-3 at 11. Kemp testified that he overheard a conversation where C.A. came home complaining that her uncle,
Miguel, was trying to pressure her into saying that the petitioner had touched her inappropriately. Id. at 14. The petitioner re­
called Clarisa Cruz and questioned her about the relationship between the petitioner and her brother, Miguel. Id. at 45-47. At
the morning break, the court went over the proposed jury instructions; petitioner’s attorney did not propose any instructions in
addition to the ones the court proposed. Id. at 63. Before the petitioner called his last witness, the court gave the jury general
instructions. Id. at 69-74. The judge did not include an admonitory instruction about “other acts” evidence. The petitioner did
not testify on his own behalf.
The State called three rebuttal witnesses: Miguel Cruz, Clarisa Cruz, and C.A. Miguel Cruz—C.A.’s uncle—testified that he
never suggested to C.A. that she fabricate allegations about the petitioner. Id. at 32. Clarisa Cruz testified that she did not recall
ever hearing her daughter complain that Miguel tried to get her to fabricate allegations against the petitioner. Id. at 38-39. C.A.
testified that she did not recall having a conversation with Vincent Wheeler and that Miguel never pressured her to make up
allegations because she “never really had a close relationship with [her] uncle.” Id. at 46. After the State’s rebuttal testimony,
the trial judge gave the jury further instructions on the law; once again, the judge did not give an instruction about the evidence
predating the charged offenses. Id. at 54.
*4 In closing argument, the petitioner attempted to undermine C.A.’s credibility—questioning how no one heard the abuse
given the close quarters of the residences, whether the assaults occurred “on a nightly basis,” and whether Miguel had pressured
her into making up the allegations. Id. at 87-101. The prosecutor’s closing argument noted, among many other things, that “the
fact of the case is that there were two people that can tell you what happened or didn’t happen in the locations that [C.A.] stated
the abuse happened and you had the opportunity to listen to [C.A.] testify. You had the opportunity to observe her as she did.
So only two people can tell you what happened.” ECF No. 14-4 at 80. The jury found the petitioner guilty. Id. at 114.
The petitioner filed post-verdict motions, and the trial court denied it following a hearing.In his appeal, the petitioner raised
four arguments. ECF No. 13-2. He argued that the trial court should not have admitted the “other acts” evidence. Id. at 21. He
further argued that the trial judge erred when he did not give a cautionary instruction at trial. Id at 27. Third, the petitioner
charged trial counsel with ineffective assistance of counsel for not ensuring that the trial court gave a cautionary instruction
about the other acts evidence. Id. at 31. Finally, the petitioner argued the prosecutor’s closing arguments violated his right to
remain silent and, consequently, his right to due process and a fair trial. Id at 33,
' r.

43-

WE5TLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

B

Wheeler v. Pollard, Slip Copy (2020)

On February 13, 2013, the Wisconsin Court of Appeals denied the petitioner’s appeal. ECF No. 13-5. The Court of Appeals
held that the “other acts” evidence at issue in this case was not “other acts” evidence at all. Id. at 4. “Evidence that the abuse
occurred oyer many years and that [the petitioner] told the victim that no one would believe her and she would be removed from
her family was all ‘part of the panorama of evidence needed to completely describe the crime that occurred and is... inextricably
intertwined with the crime. Id (citing State v. Dukes, 736 N. W.2d 515, 524 (Wis. Ct. App. 2007). The court of appeals found
that in the absence of a request from the petitioner’s counsel, the trial court was not required to give a cautionary instruction
about the previous sexual assault testimony. Id The court also agreed with the trial judge that the prosecutor’s challenged
comments about “only two people” knowing what happened were fair responses to defense arguments and not comments on
die petitioner’s failure to testify. Id at 7-8. The Wisconsin Supreme Court declined to review the petition on June 14,2013.
5 »

ANALYSIS
On October 15,2013, the petitioner filed this petition for a writ ofhabeas corpus under 28 U.S.C. § 2254, alleging five grounds
for relief: (1) the trial court improperly admitted “other acts” evidence; (2) the trial court never gave a cautionary instruction
about “other acts” evidence; (3) trial counsel was ineffective for failing to ensure the jury heard the cautionary instruction;
(4) prosecutorial misconduct during closing argument and ineffective assistance of trial counsel for failing to object to closing
argument; and (5) miscarriage of justice. ECF No. 1 at 14-31. Magistrate Judge William E. Callahan—to whom the case was
originally assigned—screened the petition and ordered the respondent to answer. ECF No. 5. Subsequently, the petitioner sought
and received a stay of this case to allow him to present additional claims to the state courts.
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), a federal court may grant habeas relief only
if the state court decision was “either (1) contrary to, or involved an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United States,’ or (2) ‘based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” Miller v. Smith, 765 F.3d 754, 759-60 (7th Cir. 2014) (quoting
28 U.S.C. § 2254(d)).
1. Admission of Other Acts Evidence
*5 The petitioner first argues that the Wisconsin Court of Appeals inappropriately characterized the alleged “other acts”
evidence as “panorama” evidence. ECF No. 17 at 26. In his view, the jury did not need to hear C.A.’s testimony about the
previous sexual abuses to establish any element of the crime charged. Id. at 27-30. He further argues the “other acts” were not
needed to provide context for the relationship between C.A. and the petitioner because the jury could still have heard that the
petitioner was C.A.’s mother’s boyfriend and then husband—making him C.A.’s stepfather. Id at 35.
The respondent contends that federal habeas relief is unavailable on this claim because the petitioner is merely challenging
the state courts’ application of state evidentiary law. ECF No. 18 at 3 (citing Estelle v. McGuire, 502 U.S. 62, 67-68 (1991)).
Alternatively, the respondent asks the court to dismiss this ground because the petitioner did not fairly present it as a
constitutional claim to the Wisconsin courts, making the claim procedurally defaulted.
Although the respondent argues procedural default in the alternative, it is generally the courts’ practice to consider procedural
issues prior to the merits (ifthe merits are considered at all). Lieberman v. Thomas, 505 F.3d 665,671 (7th Cir, 2007) (addressing
merits after concluding issue was procedurally defaulted). I will therefore consider the procedural default argument first.
A. Procedural Default

«'•)
O

666

AEDPA requires petitioners to exhaust their claims in state court before proceeding in federal court. See 28 U.S.C. § 2254(b)
(1)(A). This means “a petitioner must ‘fairly present’ his constitutional claims through at least one complete round of the state’s
established appellate review process before presenting the claims to a federal court for habeas review.” Hicks v. Hepp, 871 F.3d
513, 530 (7th Cir. 2017) (citing O'Sullivan v. Boerckel, 526 U.S. 838, 845 (1999)). “For a claim to be ‘fairly presented,’ the
petitioner must place before the state court both the controlling law and the operative facts in a manner such that ‘the state

WESTLAW © 2021 Thomson Reuters, No claim to original U.S. Government Works.

4

Wheeler v. Pollard, Slip Copy (2020)

court was sufficiently alerted to the federal constitutional nature of the issue to permit it to resolve the issue on that basis.1 ” Id.
(quoting McDowell v. Lemke, 737 F.3d 476, 482 (7th Cir. 2013)). This analysis typically focuses on four factors: (1) whether
the habeas petitioner relied on federal cases that engage in constitutional analysis, (2) whether the petitioner relied on state
cases that apply constitutional analysis to similar facts, (3) whether the petitioner framed the claims in terms so particular as
to call to mind a specific constitutional right, and (4) whether the petition alleges a pattern of facts within the mainstream of
constitutional litigation. McDowell, 737 F.3d at 482. Where a petitioner has not fairly presented his claims, the court considers
the claim procedurally defaulted. Hicks, 871 F.3d at 531 (citing Lombardo v. United States, 860 F.3d 547, 555 (7th Cir. 2017)).
The petitioner’s brief to the Wisconsin Court of Appeals did not alert that court to the potential constitutional component of
the admission of “other acts” evidence. ECF No. 13-2. The brief did not rely on federal cases, but instead primarily cited Wis.
Stat. § 904.04(2) and State v. Sullivan, 576 N.W.2d 30,32-33 (Wis. 1998), as the governing standard. ECF No. 13-2 at 21. The
Sullivan case did not apply constitutional analysis; it analyzed Wis. Stat. § 904.04(2) and Wbitty v. State, 149 N.W.2d 557 (Wis.
1967). Sullivan does not mention due process or the federal constitution. The petitioner’s appellate brief cites only Wisconsin
cases and those cases analyze Wisconsin evidentiary law. Nor did the petitioner frame his argument so as to call the court’s
attention to a due process analysis; instead, his arguments called the court’s attention to Sullivan & three-pronged test. ECF No.
13-2 at 21. Again, Sullivan does not mention federal due process concerns. Finally, as discussed above, evidentiary rulings (and
the fact patterns associated with those rulings) are typically not the subject of constitutional litigation. See Lemke, 745 F.3d at
275. In short, none of the “fair presentment” factors weigh in favor of the petitioner. Thus, the claim is procedurally defaulted.
The petitioner does not argue that he should be excused from the default due to cause and prejudice.
B. Independent State Law Determination
*6 Relatedly, the respondent also argues that, even if the issue were not procedurally defaulted, the question posed is one of
state evidentiary law rather than anything implicating the Constitution. The respondent is correct: federal habeas corpus relief
is available to a state prisoner only if he can demonstrate that he is in custody in violation of a federal constitutional right. 28
U.S.C. § 2254(a). The Wisconsin state courts here made decisions about Wisconsin state law. Erroneous admissions of evidence
under state rules of evidence do not implicate federal habeas review “unless it is so egregiously prejudicial as to implicate
constitutional principles.” Richardson v. Lemke, 745 F.3d 258,275 (7th Cir. 2014). “State court evidentiary rulings only implicate
the Due Process Clause when ‘evidence is so extremely unfair that its admission violates fundamental conceptions of justice.
Id. (quoting Perry v. New Hampshire, 565 U.S. 228, (2012)). “[W]hen the state merely fails to limit the prosecution’s evidence,
the only constitutional principle to which the defendant can appeal is a catch-all sense of due process ... and the appeal almost
always fails.” Watkins v. Meloy, 95 F.3d 4, 6-7 (7th Cir. 1996) (collecting cases). “If the evidence is probative, it will be very
difficult to find a ground for requiring as a matter of constitutional law that it be excluded; and if it is not probative, it will be
hard to show how the defendant was hurt by its admission.” Id.
Here, the petitioner cannot show that the trial court’s admission of the petitioner’s previous assaults of C.A. rose to the level
of a constitutional due process violation. The evidence was probative; it explained the beginning of the abusive relationship
and provided context for the acts that occurred in Wisconsin in 2001 and 2002. An evidentiary error like the one alleged here
does not amount to a constitutional violation unless it “produced a significant likelihood that an innocent person has been
convicted.” Howard v. O’Sullivan, 185 F.3d 721, 723-24 (7th Cir.1999) (finding no constitutional issue after Illinois courts
found that admission of handgun into evidence was error). There is no such likelihood here.
2. Failure to Give Cautionary Instruction
Next, the petitioner argues the trial court erred by failing to give a cautionary instruction about C.A.’s “other acts” testimony.
ECF No. 17 at 36. He says that at the final pre-trial conference, the trial court deferred a decision on when to give the instruction,
not whether he would give it. He contends that the Wisconsin Court of Appeals erred by not considering the lack of a cautionary
instruction when analyzing whether the prejudicial nature of the evidence outweighed its probative value. He further argues the
Wisconsin Court of Appeals should have analyzed the effect a cautionary jury instruction could have had on the verdict.
o

4 o - y 0 0

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Wheeler v. Pollard, Slip Copy (2020)

“Generally, in a habeas corpus action where the petitioner alleges constitutional error due to the trial court’s refusal to allow
a defense instruction, the constitutional question is limited to whether the petitioner sufficiently alleges a ‘fundamental defect
which inherently results in a complete miscarriage of justice.’ ” Leach v. Kolb, 911 F.2d 1249, 1257 (7th Cir. 1990) (quoting
United States exrel. Stamps v. Hartigan, 586 F. Supp. 1575,1577 (N.D. Ill. 1984)). “When asked to consider if the absence of
a particular jury instruction offended due process it is not sufficient that the trial court erred under state law or that the omitted
instruction would have been desirable.” McAlister v. Thurmer, No. 10-C-441,2010 WL 3860153, at *6(E.D. Wis. Oct. 1,2010)
(citing Estelle, 502 U.S. at 72)). “Rather, the question the court must ask is whether, considering the context of the instructions
as a whole and the trial record, die absence of the instruction ‘so infected the entire trial that the resulting conviction violates
due process.’ ” McAlister, 2010 WL 3860153, at *6 (quoting Estelle, 502 U.S. at 72).

I

l

Here, as the court of appeals found, the evidence was not “other acts” evidence at all—it was simply part of the total picture
of the petitioner’s criminal conduct and provided necessary context to explain why the victim waited several years to report
the crimes. The victim’s credibility had been challenged, and the prior abuse partly explained the delay in reporting the crimes
to the police. “Evidence that the abuse occurred over many years and that [the petitioner] told the victim that no one would
believe her... was all ‘part of the panorama of evidence needed to completely describe the crime that occurred.’ ’’ECFNo. 13-5
at 4 (citation omitted). Given this conclusion, it is difficult to see how the trial court could have erred for failing to provide a
cautionary instruction: there would have been nothing about which to “caution” the jury. More to the point, it is impossible to
conclude that the absence of a cautionary instruction here resulted in a miscarriage ofjustice or violated due process. Leach, 911
F.2d at 1257. There is no suggestion that the State exploited the pre-charging evidence or made it the centerpiece of the trial.
Both sets of closing arguments directed the jury to focus on the Oshkosh allegations when rendering its verdict. Additionally,
the trial judge’s instructions to the jury on the elements of the offense emphasized the relevant time frame: “Before you may
find die defendant guilty you must unanimously agree that at least three sexual assaults occurred between October of 2001 and
May of 2002[.]”). ECF No. 14-4 at 50. Reading the record as a whole, I cannot find the trial judge’s failure to give a cautionary
instruction about C.A.’s testimony was an error that infected the entire trial. Henderson v. Kibbe, 431 U.S. 145,155 (1977) (“An
omission, or an incomplete instruction, is less likely to be prejudicial than a misstatement of the law.”)
3. Ineffective Assistance of Trial Counsel
*7 The petitioner also contends that he received ineffective assistance of counsel when his trial counsel did not ensure the
judge gave a cautionary instruction about C.A.’s testimony. ECF No. 17 at 41. He argues that the “wholesale admission of all
the ‘other acts’ evidence in this case without any cautionary instruction(s) did severely prejudice [the petitioner] to the point
of denying him a fair trial.” Id. at 41.
Under Strickland v. Washington's familiar, two-pronged test for ineffective assistance of counsel, the petitioner must demonstrate
that (1) his counsel’s performance was deficient; and (2) that deficiency resulted in prejudice. UnitedStates v. Berg, 714 F.3d 490,
496-97 (7th Cir. 2013) (citing Strickland v. Washington, 466 U.S. 668 (1984)). The performance prong of Strickland requires a
petitioner to show “ ‘that counsel’s representation fell below an objective standard of reasonableness.’ ” Lafler v. Cooper, 566
U.S. 156, 163 (2012) (quoting Hill v. Lockhart, 474 U.S. 52, 57 (1985)). “To establish Strickland prejudice a defendant must
“show that there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Lafler, 566 U.S. at 163 (quoting Strickland, 466 U.S. at 694). Here, because the state court of appeals ruled that
the admitted evidence was fair game, and because there are no constitutional infirmities associated with the admission of that
evidence, it would be impossible to find either that counsel’s performance was constitutionally deficient or that any prejudice
resulted from counsel’s failure to ask for a cautionary instruction. Warren v. Baenen, 712 F.3d 1090, 1105-06 (7th Cir. 2013)
(“Counsel is not ineffective for failing to raise meritless claims.”)
Even if a more searching inquiry of counsel’s performance were warranted here, as the petitioner requests, the result would not
change. The trial court held an evidentiary hearing addressing trial counsel’s performance. ECF No. 14-6. When asked why he
never requested an “other acts” instruction, counsel explained: “I usually do not request that instruction because I don’t think
it is that helpful.” He elaborated:
u

A*

WESTtAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Wheeler v. Pollard, Slip Copy (2020)

Usually, and in my mind like even with [the petitioner], what happens is you have the Judge telling
the jury how to use the evidence against Mr. Wheeler. That is what happens in my mind. I don’t think
the curative instruction or the Whitty acts instruction is that helpful because basically what the Judge is
saying, well, you can’t use it to just say he is a bad person or that he did it before so he did it again this
time, but that is what he said, but then the other side is but you can use it for this purpose, you can use it
to find him guilty because it shows his intent, it shows motive, it shows opportunity, it shows plan, the
whole works so to me that really doesn’t - in my mind that really did not help Mr. Wheeler.

ECF No. 14-6 at 14-15. Counsel later explained that he intentionally asked the jury to limit itself to the Wisconsin evidence
in his closing argument instead of requesting a tailored instruction from the judge. Id at 15. The trial court found counsel’s
decision to be a matter of strategy, explaining that “I think under the circumstances of this case that that tactical decision is
in the hands of [counsel]. He indicated in his testimony that that was the purpose of it and he does not like that instruction
and does not ask for that on a regular basis so I’m finding that he was not deficient because there is a tactical basis for his
decision.” ECF No. 14-7 at 4.
*8 The Wisconsin Court of Appeals reviewed the trial court’s decision and remarked that “[deciding not to seek a cautionary
instruction can be a strategic decision to avoid ‘underscoring] the forbidden purpose the defendant wishes to avoid.’ ” ECF No.
13-5 at 5. It deferred to the trial court’s credibility determination and could not find clear error in the trial court’s finding regarding
counsel’s performance. Id. at 6. This conclusion was neither an unreasonable determination of the facts (/. e., that counsel
deliberately decided not to request an instruction) nor was it an unreasonable application of Strickland. The petitioner contests
the factual finding on the basis that counsel failed to oppose the instruction when it was discussed at the final pretrial conference.
Yet counsel’s lack of opposition to the instruction reveals no inherent inconsistency. Voicing opposition to an instruction is
different than requesting an instruction; the transcript suggests that it is not the kind of instruction counsel affirmatively seeks
out, but neither is it something he would necessarily oppose if the judge proposed giving it. The court’s factual finding is hardly
unreasonable.
As for Strickland, the Seventh Circuit—like the Wisconsin Supreme Court—has explicitly recognized that foregoing a limiting
instruction may be a reasonable, viable trial strategy for counsel. United States v. Gregory74 F.3d 819, 823 (7th Cir. 1996)
(“Indeed, the decision not to request a limiting instruction is solidly within the accepted range of strategic tactics employed
by trial lawyers in the mitigation of damning evidence. If the lawyer cannot stop the evidence from being admitted, it is
perfectly rational to decide not to draw further attention to it by requesting a motion for limiting instruction); Biggerstaff v.
Clark, 999 F.2d 1153,1155 (7th Cir. 1993) (“Having lost the admissibility issue, it would be reasonable for counsel to choose
not to request a limiting instruction, making a tactical decision to forego the instruction to avoid further focus of the jury’s
attention on the unfavorable use that could be made of the evidence.”). Here, Strickland demands that counsel’s strategic
decision receive deference from a reviewing court. 466 U.S. at 690 (“... strategic choices made after thorough investigation of
law and facts relevant to plausible options are virtually unchallengeable^]”). And, under AEDPA, this court affords the state
court determination an additional level of deference. Accordingly, this court cannot find that the Wisconsin Court of Appeals
unreasonably applied Strickland in assessing trial counsel’s performance.
4. Prosecutorial Misconduct & Ineffective Assistance of Counsel
Next, the petitioner argues that the prosecutor’s closing argument improperly commented on the petitioner’s decision not to
testify. ECF No. 17 at 44. Relatedly, he also charges his attorney with ineffective assistance of counsel for not objecting during
the closing argument.
The prosecutor made the following remarks during closing:

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

w O 0 &

A&
7

Wheeler v. Pollard, Slip Copy (2020)

The defense today wants to detract you away from the facts of this case, the details that [C.A.] shared with you and
continuously shared over time with law enforcement and parts of the “Open Secret” and wants you to focus on the fact of
who was in die house and what is going on.
Ladies and gentlemen, the fact of the case is that there were two people that can tell you what happened or didn’t happen
in the locations that [C.A.] stated die abuse happened and you had the opportunity to listen to [C.A.] testify. You had the
opportunity to observe her as she did. So only two people can tell you what happened.
You get to decide what the emotion that you may have seen means; you get to decide whether or not she is being truthful.
That’s your job.
EOF No. 14-4 at 80.
Later, she reprised these remarks, noting that “[o]nly two people know what happened. What makes sense here? Ask yourself.”
Id. at 84. Finally, in rebuttal, she again stated that “[t]here are two people that can tell you what happened or did not happen
in the bedroom because only two people know and I am not quite sure who I would bring in to tell you.” Id. at 104. The
petitioner argues that these comments showed the prosecutor “is at least implicitly, if not explicitly, telling the jury to convict
[the petitioner] because he did not deny the charge.” ECF No. 17 at 47.
*9 “To safeguard the defendant’s Fifth Amendment right against self-incrimination, the government cannot offer a defendant’s
failure to testify as ‘substantive evidence of guilt,’ whether directly or indirectly.” United States v. Willis, 523 F.3d762,773 (7th
Cir. 2008) (citing United States v. Robinson, 485 U.S. 25, 34 (1988) and Griffin v. California, 380 U.S. 609 (1965)). However,
“the Fifth Amendment does not otherwise prevent the government from commenting on the evidence adduced at trial.” Id. For
example, where “ ‘the prosecutor’s reference to the defendant’s opportunity to testify is a fair response to a claim made by [the
petitioner] or his counsel,... there is no violation of the privilege.’ ” United States v. Ochoa-Zarate, 540 F,3d 613, 618 (7th
Cir. 2008) (quoting Robinson, 485 U.S. at 32).
To separate the permissible from the impermissible, courts look to the context of the statements to decide whether (1) it was the
prosecutor’s “manifest intention” to use the defendant’s silence as evidence of guilt; or (2) the remark was of such a character
that the jury would “naturally and necessarily” treat it as such. Willis, 523 F.3d at 773 (citing United States v. Cotnam, 88 F.3d
487,497 (7th Cir. 1996) and Robinson, 485 U.S. at 33). The Wisconsin Court of Appeals framed the test this way:

For a prosecutor’s comment to constitute an improper reference to the defendant’s failure to testify, three
factors must be present: (1) the comment must constitute a reference to the defendant’s failure to testify;
(2) the comment must propose that the failure to testify demonstrates guilt; and (3) the comment must
not be a fair response to the defense argument.

4 ii - U O 6

ECF No. 13-5 at 7 (quoting State v. Jaimes, 715 N.W.2d 656, 669-70 (Wis. Ct. App. 2006)). The court of appeals found each
of the prosecutor’s challenged comments to be fair responses to defense arguments. Id.
The petitioner does not argue that die court of appeals applied an incorrect standard. {Jaimes, the Wisconsin case cited by
the court of appeals, itself relies on United States v. Robinson.) Instead, he contends that the court of appeals unreasonably
determined the prosecutor’s comments were fair responses to defense arguments. The court of appeals found that the comments
were a fair response to the defense’s strategy of “distracting] the jury” and suggesting that the victim had “fabricated her
claims.” ECF No. 13-5 at 7. The prosecutor was not suggesting that the defendant was guilty because he did not testify, but
merely reminding the jury that the victim had testified compellingly: “[y]ou had the opportunity to observe her as she did. So
only two people can tell you what happened. You get to decide what the emotion that you may have seen means; you get to
decide whether or not she is being truthful. That’s your job.” ECF No. 14-4 at 80. Later, in rebuttal, the prosecutor reiterated that

W6STLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Wheeler v. Pollard, Slip Copy (2020)

“there are two people that can tell you what happened... the State cannot bring in others to state what happened in that bedroom.”
Id. at 104. This statement followed on the heels of her argument that “it is up to you to determine the credibility of the victim in
this case. You had an opportunity to observe her demeanor on the witness stand.” Id. The apparent point of these statements was
twofold: the victim’s testimony was the best evidence the jury had because there were no other witnesses the State could put
on (at least as to what actually happened between the victim and the defendant), and the victim’s testimony was credible based
on how she testified. Emphasizing the credibility of the victim’s live testimony is perfectly proper, and here, any reference to
“only two people” knowing what happened was tangential in importance compared to the prosecutor’s main line of argument,
which was that the jury had heard compelling testimony from one of only two people who really knew what happened.
*10 It may be argued that emphasizing the credibility of the victim’s testimony while pointing out that only one other person
knew what happened might bring the defendant’s own failure to testify into sharp relief. Even so, this oblique and attenuated
connection is, at most, a “comment[ ] on the evidence adduced at trial,” Willis, 523 F.3d at 773, not a suggestion that the
defendant’s failure to testify means he must be guilty. Absent a suggestion that the jury take the defendant’s silence as substantive
evidence of guilt, a prosecutor’s mere reference to a defendant’s failure to testify is not a Fifth Amendment violation. Robinson,
486 U.S. at 31.
Finally, courts agree that prosecutorial statements must be read in context, not cherry-picked. Robinson, 485 U.S. at 38. Here,
by her own admission, the prosecutor was “long-winded” and gave a lengthy closing and rebuttal. ECF No. 14-4 at 102. The
closing arguments detailed the evidence presented and asked the jury to believe the prosecution’s witnesses. The petitioner here
has merely selected a few bare snippets out of a lengthy closing argument and rebuttal, and these quotations do not do justice to
the prosecutor’s central message. In addition, it is notable that the court instructed the jury that “a defendant in a criminal case
has the absolute constitutional right not to testify. The defendant’s decision not to testify must not be considered by you in any
way and must not influence your verdict in any manner.” ECF No. 14-4 at 54; Jaimes v. Humphreys, 2008 WL 1927341, at *6
(E.D. Wis. Apr. 29, 2008). In this larger context, it is clear that the court of appeals properly considered the Robinson factors
and reached a reasonable conclusion. I cannot, therefore, say that the court unreasonably applied controlling Supreme Court
precedent. 28 U.S.C. § 2254(d). And, because the prosecutor’s comments did not violate the defendant’s Fifth Amendment
rights, the petitioner cannot sustain an argument that his trial counsel was unconstitutionally deficient for failing to object during
closing arguments. Warren, 712 F.3d at 1105-06 (“Counsel is not ineffective for failing to raise meritless claims”)
5. Miscarriage of Justice
The petitioner also argues that under Wis. Stat. § 752.35, this case resulted in a miscarriage of justice in which the real
controversy has not been fully tried. He says that the trial court’s admission of the sexual abuse testimony from the pre-charging
period so obscured the issues of the case such that there is a substantial probability of a different result on retrial.
Wis. Stat. § 752.35, entitled “discretionary reversal,” reads:

In an appeal to the court of appeals, if it appears from the record that the real controversy has not been
fully tried, or that it is probable that justice has for any reason miscarried, the court may reverse the
judgment or order appealed from, regardless of whether the proper motion or objection appears in the
record and may direct the entry of the proper judgment or remit the case to the trial court for entry of
the proper judgment or for a new trial, and direct the making of such amendments in the pleadings and
the adoption of such procedure in that court, not inconsistent with statutes or rules, as are necessary to
accomplish the ends of justice.
, r»

4 0

This issue presents an issue of state law that this court cannot review. Estelle, 502 U.S. at 67-68 (“Today we reemphasize that it
is not the province of a federal habeas court to reexamine state-court determinations on state-law questions.”). In other words,

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Wheeler v. Pollard, Slip Copy (2020)

this federal court does not have the authority to grant the petitioner a discretionary reversal under the cited Wisconsin state
statute even if it agreed that a fundamental miscarriage of justice had occurred.
6. Remaining Grounds for Relief
*11 There remains the issue of the additional claims the petitioner attempted to exhaust in the state courts. The petitioner’s
original petition did not list any other grounds for relief. ECF No. 1. However, in April 2014, the petitioner filed a motion to
stay the petition to allow him to present other grounds for relief to the state courts. ECF No. 19. Judge Griesbach’s September
3,2014 order granted the petitioner’s motion to stay but did not clarify which grounds the petitioner would attempt to exhaust.
ECF No. 31.
On June 16,2015, the petitioner filed a lengthy status update accompanied by over two-hundred pages of additional documents.
ECF No. 37. In it, he cites a number of post-conviction remedies he has filed (unsuccessfully) in the state courts, including
writs of habeas corpus, a motion under Wis. Stat. § 974.06, and several Knight petitions. There are no motions or briefs filed in
connection with the status report or any of the additional claims the petitioner raised in the state courts. The status report itself
is not a substitute for briefing or motion practice; it simply provides information about the various filings the petitioner made
in state court. Indeed, based on the petitioner’s own more recent filing, ECF No. 47, he appears to want the court to decide his
petition as is, that is, without further briefing on any additional claims.
In any event, as far as it is possible to tell, it appears that the arguments more recently presented to the Wisconsin state courts
either echo the arguments already discussed above or were summarily dismissed, for procedural reasons, by the Wisconsin
courts. ECF No. 37-1 at 3-10. The petitioner’s petition to the state supreme court was denied as untimely. ECF No. 42-1 at 1-2.
Any such claims are either duplicative of the claims addressed above or are procedurally defaulted.

2

CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11 of the Rules Governing Section 2254 Cases, this Court must “issue or deny a certificate of appealability
when it enters a final order adverse to the applicant.” A certificate should be issued only where the petitioner “has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
In order for a certificate of appealability to issue, a petitioner must show that “reasonable jurists” would find this Court’s
“assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); Buck v. Davis,
137 S. Ct. 759, 773 (2017). Here, I cannot conclude that the assessment of the merits of the petitioner’s claims is debatable
by reasonable jurists. Moreover, where a petition is dismissed (here, in part) on procedural grounds, the petitioner must show
both that reasonable jurists would “find it debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court was correct in its procedural ruling.” Slack,
529 U.S. at 484. Here, no reasonable jurist would find the court’s procedural rulings debatable. Accordingly, a certificate of
appealability will be denied.
CONCLUSION
*12 For the reasons given above, the petition is DENIED and the case is DISMISSED. A certificate of appealability is
DENIED. The clerk will enter judgment accordingly.
SO ORDERED this 27th of May, 2020. All Citations

4 3o 666

Slip Copy, 2020 WL 2748130

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Wheeler v. Pollard, Slip Copy (2020)

Footnotes
The lengthy delay in adjudicating this action is addressed by the court’s decision found at ECF No. 49.
1
In a subsequent filing, the petitioner blames the respondent for not providing him with an extension to a legal loan. ECF No. 45.
2
The lack of funds purportedly prevented him from timely filing his petition with the state supreme court. He does not explain how
the lack of funds caused him to miss the thirty-day deadline, however. Even so, the denial of a legal loan under these circumstances
would not constitute cause for the default. First, the state courts denied his petitions and appeals prior to any petition to the Wisconsin
Supreme Court would have been due. Moreover, Johnson v. Foster, 786 F.3d 501, 510 (7th Cir. 2015) holds that the absence of a
legal loan is not ground for excusing a procedural default. “He argues that this procedural default should be excused because prison
administrators refused to give him a legal loan. But he’s not constitutionally entitled to a subsidy, and the denial of his loan request
was not an objective, external impediment to compliance with the state court’s procedural requirements.” Id
End ofDocument

O 2021 Thomson Reuters. No claim to original U.S. Government Works.

A 3 O \) 6 6
C

•v.

WSSTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Additional material
from this filing is
available in the
Clerk's Office.

